Review of Non-Chargeable Claimants
   Under The Federal Employees’
        Compensation Act




           U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations




                                      Report No. 2E-04-431-0001
                                       Date: September 24, 1999
                                               Table of Contents
                                                                                                                       Page

       Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

I.     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.    Background and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

III.   Findings, Conclusions and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . .                           3
       1.    Profile of Non-chargeables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                3
       2.    Life Span and Projected Costs of Non-chargeables . . . . . . . . . . . . . . . .                                6
       3.    Returning Claimants to Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   7
       4.    Accuracy and Usefulness of Claimant Information . . . . . . . . . . . . . . . . .                               8

Appendices

A.     Bibliography . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   11
B.     Non-chargeable and Total FECA Claims and Costs . . . . . . . . . . . . . . . . . . . .                               13
C.     Medical Expenses:
              Non-chargeable and Total FECA Claims and Costs . . . . . . . . . . . . . . .                                  14
D.     Compensation Benefits:
              Non-chargeable and Total FECA Claims and Costs . . . . . . . . . . . . . . .                                  15
E.     Survivor Benefits:
              Non-chargeable and Total FECA Claims and Costs . . . . . . . . . . . . . . .                                  16
F.     Non-chargeable Costs by Category . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   17
G.     Life Expectancy Calculation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            18
H.     Special Cases / Fringe Acts Claims, 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     19
I.     Claimant Records Summary, June 30, 1993; 1997; and 1998 . . . . . . . . . . . .                                      20
J.     Special Cases / Fringe Acts Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21
K.     Special Cases / Fringe Acts Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  24
L.     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26

Acronyms

CB              Chargeback
FECA            Federal Employees’ Compensation Act
LEO             Non-Federal Law Enforcement Officers
N/C             Non-chargeable
OIG             Office of Inspector General
OWCP            Office of Workers’ Compensation
ROTC            Reserve Officer Training Corps
                                  Executive Summary

The Office of Inspector General (OIG) conducted an examination of claimants
categorized as “non-chargeable,” under the Federal Employees’ Compensation Act
(FECA). Based on the OIG goal of improving the integrity and cost efficiency of the
Department of Labor’s disability compensation programs, the Division of Evaluations
and Inspections initiated this review of the non-chargeable claimants.

Our review of the non-chargeable claims focused on four questions: (1) What is their
profile, (2) What are their life span and projected costs, (3) Are claimants returning to
work, and (4) Is the claimant information accurate and useful.

The Office of Workers’ Compensation Programs (OWCP), which oversees the FECA
program, began categorizing claims as “non-chargeable” or “chargeable” after
Congress passed an amendment to FECA in 1960. The amendment stated that
effective December 1, 1960, OWCP would bill Federal agencies for total costs of
benefits for job-related illnesses, injuries, or deaths of their respective employees.
These claims are referred to as “chargeable” because each employing agency is
responsible–or charged–for the total cost of benefits paid for injuries or deaths
occurring after December 1, 1960. Non-chargeable claims and chargeable claims
differ because costs for non-chargeable claims, which occurred prior to December 1,
1960, are not billed back to employing agencies. Funding for these non-chargeable
claims, as well as other specific kinds of claims (outlined on page 4), also referred to as
non-chargeable, are appropriated directly by Congress to OWCP.

To present our report, we looked at total non-chargeable claims and costs paid since
1993, unless otherwise noted.

Profile of Non-chargeables

We found that, on average, less than 2 percent of the FECA claimant universe and
costs paid between 1993 and 1998 were in non-chargeable claims. Overall, the
number of non-chargeable claimants have decreased by 30 percent and costs have
decreased by 20 percent, since 1993. Although the universe is a small group, no two
categories are alike, making any analysis complex.

Life Span and Projected Costs of the Non-chargeables

We predict that, 90 percent, at most, of the current non-chargeable claimants will no
longer receive benefits by the year 2022. We found that the pre-12/60 costs and many
of the older special case/fringe act categories will likely be eliminated by the year 2023.




                                             i
Returning Claimants to Work

It is difficult to determine who may, or may not, eventually return to work. Claimants fall
into two categories: (1) claimants who are covered under OWCP return-to-work
policies and (2) claimants (family members) who receive survivor benefits. On June 30,
1998, 2,068 (56%) claimants were covered under OWCP’s return-to-work policies with
the remaining 1,592 (44%) receiving survivor benefits. For example, approximately 796
(39%) of non-chargeable claimants are Reserve Officer Training Corps and non-
Federal Law Enforcement Officers. Based on the nature and cause of injuries to these
claimants, predominately traumatic/violent, it is difficult to predict what percentage of
them will return to work. Even so, we found evidence which verified that OWCP’s
efforts to return non-chargeable claimants back into the workforce, either in similar
positions or through retraining programs, are comparable to efforts of employing
agencies.

Accuracy and Usefulness of Claimant Information

For this portion of our report, we took three snapshots–in time–of the non-chargeable
claimant universe: June 30, 1993; June 30, 1997; and June 30, 1998. We identified
two minor problems with claimant information: (1) incorrect data and (2) omitted data.
According to OWCP, the agency is currently redesigning the automated database
system application for federal employees’ compensation. The redesign includes a
requirement that claimants, as well as all beneficiaries, provide OWCP their social
security numbers and dates of birth. Since the number of problems we found within the
non-chargeable claimant universe is small, OWCP should attempt, to the extent
possible, to make any corrections we have suggested in our report during the
implementation phase of their redesigned database. We provided a draft of this report
to OWCP.

The agency’s response is found on page 10 of the report and in its entirety in Appendix
L. OWCP is in agreement with the findings and conclusions of our report. Based on
OWCP’s response, we consider this recommendation resolved.




                                            ii
I.    PURPOSE

      The Office of Inspector General (OIG) conducted an examination of claimants
      categorized as “non-chargeable”, under the Federal Employees’ Compensation
      Act (FECA). Based on the OIG goal of improving the integrity and cost efficiency
      of the Department of Labor’s disability compensation programs, the Division of
      Evaluations and Inspections initiated this review of the non-chargeable
      claimants.

      Our review of the non-chargeable claims focused on four questions: (1) What is
      their profile, (2) What are their life span and projected costs, (3) Are claimants
      returning to work, and (4) Is the claimant information accurate and useful.

      This review was conducted according to the Quality Standards for Inspections
      published by the President’s Council on Integrity and Efficiency.

II.   BACKGROUND AND METHODOLOGY

      1.    Background

      The Federal Employees’ Compensation Act (FECA) was enacted in 1916 to
      cover all civilian Federal employees for wage loss compensation, medical care,
      and survivors’ benefits in the event of death. The Division of Federal
      Employees’ Compensation, Office of Workers’ Compensation Programs
      (OWCP), which monitors the FECA program, made changes to the program to
      accommodate a 1960 Congressional amendment. The amendment stated that
      effective December 1, 1960, OWCP would furnish statements to Federal
      employing agencies for the total costs of benefits for work-related illnesses,
      injuries, or deaths of individuals who were employed in their agency (at the time
      of incident). In turn, each agency would reimburse the Employees’
      Compensation Fund for the previous year’s total costs of benefits. These claims
      are known as “chargeable” because the employing agency is charged–or
      responsible–for the costs. Non-chargeable claims differ from chargeable claims
      because costs for these injuries or deaths, which occurred prior to December 1,
      1960, are not billed back to employing agencies. Funding for these non-
      chargeable claims, as well as other specific kinds of claims (outlined on page 4),
      also referred to as non-chargeable, are appropriated directly by Congress to
      OWCP.

      Non-chargeable claims are categorized as: (1) Pre-12/60 Injury (claims prior to
      December 1, 1960), (2) Obsolete Agencies (defunct agencies rather than
      transferred/combined agencies), and (3) Special Cases/Fringe Acts (individuals
      not considered Federal employees but covered under certain circumstances–for
      example, because of their involvement on a Federal project or event).


                                           1
2.    Methodology

To conduct our analysis, we reviewed literature in the field and examined the
U.S. Code of Federal Regulations and pertinent legislation. For our analysis, we
used data provided to us by OWCP. We did not independently verify the
accuracy of the data provided to us. To obtain additional information, we met
with OWCP staff and reviewed reports at the local district office, but did not
review any case files.

      a.     Profile of Non-chargeable Claims and Costs

      To develop a profile of the claimants receiving non-chargeable benefits,
      we analyzed OWCP’s reported claims and cost figures on the: (1) total
      non-chargeable claims and costs; (2) non-chargeable claims and costs for
      medical, compensation and survivor benefits; and (3) claims and costs
      within each non-chargeable category. Our analysis was conducted in
      increments of five-years--chargeback years 1988, 1993, and 1998.
      Appendices B through F show the actual claims/costs, rate changes and
      savings.

      b.     Life Span and Projected Costs of Non-chargeables

      Life Span

      We conducted two analyses on life span with age 62 as a benchmark.
      This age was used because it is the age that employees can retire from
      Federal service with the least years of service (five years).

      For our first analysis, we obtained a mean/median age of the claimants
      who were over the benchmark age of 62 years. In conducting our second
      analysis, we used the actual benchmark age of 62 years. In both
      analyses, age was converted to a life expectancy figure as cited in the
      Annuity Shopper, Actuarial Tables, and was added to the current year.
      Two Special Case/Fringe Act categories, Reserve Officer Training Corps
      (ROTC) and non-Federal Law Enforcement Officers (LEO), were not
      included in our analysis because the number of claimants will fluctuate
      unpredictably. Appendix G shows the life span calculations.

      Projected Costs

      Our second analysis was to project when, and if, costs would stop. Our
      analysis was based on current costs and was conducted using Forecast


                                    2
             (an Excel application to predict a future value using existing values).

             c.     Returning Claimants to Work

             To gauge the number of claimants covered under OWCP’s return-to-work
             policies, we analyzed a sample of OWCP data for June 30, 1998–the
             most recent chargeback date. To learn about the rules and practices
             regarding returning claimants to work, we reviewed OWCP’s return-to-
             work policies, procedures, and practices. A detailed analysis of claimants
             who returned to work is not included in this review. Appendix H details
             data used.

             d.     Accuracy and Usefulness of Claimant Information

             To determine the accuracy and usefulness of claimant information, we
             used three snapshots–in time–of the non-chargeable claimant universe:
             June 30, 1993; June 30, 1997; and June 30, 1998. We used June 30,
             1993 as our baseline and June 30, 1997 and June 30, 1998 as the most
             recent ending chargeback dates. We examined all of the fields of 12,740
             non-chargeable claimant records to verify the existence (if applicable) and
             accuracy of data in each field. Information on records is in Appendix I.

III.   FINDINGS, CONCLUSIONS AND RECOMMENDATIONS

       Overall, we found no significant concerns pertaining to the non-chargeable
       universe. We noted that the procedures OWCP uses to monitor the non-
       chargeable claimant universe are the same as those used to monitor the
       chargeable claimant universe. Based on our examination of the FECA Program
       Procedures and statements by OWCP officials, we concluded that even though
       there is no employing agency responsible for monitoring this group of claimants,
       the non-chargeable claimant universe is no more susceptible to the filing of
       fraudulent claims than the FECA claimant population as a whole.

       1.    Profile of Non-chargeables

             We found that, on average, less than 2 percent of the FECA claimant
             universe and costs paid between 1993 and 1998 were in non-chargeable
             claims. Overall, the number of non-chargeable claimants decreased by
             30 percent and costs have decreased by 20 percent since 1993.
             Although this universe is small, no two categories are alike, making any
             analysis complex.




                                           3
a.      Claimants

Figure 1 lists the non-       Figure 1
chargeable categories as of                    Non-chargeable Categories
June 30, 1998: Pre-12/60
                                B Pre-12/60 Injury
Injury, Obsolete Agencies,         all claims filed prior to December 1, 1960
and Special Cases/Fringe        B Obsolete Agencies
Acts. Each Special                  Commission of the Bicentennial of the Constitution
                                    Community Services Administration
Case/Fringe Act is unique       B Special Cases/Fringe Acts
because each is tied to a           Civil Air Patrol
                                    Civilian Conservation Corps
specific statutory authority        Civilian War Benefits
and benefits are paid               Civilian Works Administration
                                    Enemy Action
accordingly. For example,           Federal Emergency Relief Act
the Florida Hurricane was           Florida Hurricane
                                    Non-Federal Law Enforcement Officers (LEO)
included by Congress to             National Youth Administration (no claims)
cover individuals who were          Reserve Officers Training Corps (ROTC)
                                    War Claims Act
attached to specific Veterans       War Hazards
Camps (numbers 1, 3, 5) and         War Relocation Authority
                                    Work Projects Administration
were injured or killed in a         World War II Maritime
September 2, 1935 hurricane
in the Florida Keys–“Florida
Hurricane” had not been previously listed.

Appendices J and K provide a summary and breakout of costs for
each Special Case/Fringe Act category.
                                                 Figure 2
Figure 2 is a graphic representation of Number/Percentage - Claimants
the number and proportions of             total: 3,660
claimants by category on June 30,
                                                                     2383
1998. It highlights that the majority of                65.1%
claims were within the Pre-12/60                                   2
                                                                           1275
Injury category and only two claims
were within the current Obsolete                         0.1%

Agencies category. Even though the                                     34.8%

Special Cases/ Fringe Acts category             Pre 12/60 injuries
makes up less than half of the total            Obsolete agencies
non-chargeable claims, we looked at             Special cases/fringe acts
each of the separate categories to
identify any high concentrations of claimants.



Special Cases/Fringe Acts


                                     4
The analysis of Special Cases/Fringe Acts is complex, because different
sets of conditions or criteria apply to each, as defined by Congress.
These criteria include such areas as eligibility, time constraints,
computation of benefits, and length of coverage, to name a few. For
example, on June 30, 1998, over 50 percent of the special case/fringe act
claims were in ROTC but these claims made up less than one percent of
the total non-chargeable costs during the same period. Unlike other
categories, ROTC claimants are entitled to receive compensation benefits
at either two-thirds or three-fourths of a monthly rate of pay of $150 (set
by statute), which equates to $100.00 or $112.50 per month, respectively.

Another complexity within the Special Cases/Fringe Acts category is the
date when each case/act was added, resulting in a wide span in
claimants’ ages from one case/act to another. Some of the Special
Cases/Fringe Acts were enacted in the early 1930's, so the numbers of
claims will continue to decline. For example, on June 30, 1998,
approximately half of the Special Case/Fringe Act categories have fewer
than ten claimants. The number of claimants in other cases/acts will
continue to fluctuate in unpredictable ways.

b.    Costs
                                    Figure 3
As Figure 3 shows, for the
chargeback year 1998 (July 1,
1997 to June 30, 1998) a total
of 3,343 non-chargeable claims
were paid at a cost of $40.5
million out of a total of 261,456
FECA claims paid totaling about
$1.9 billion.

Our analysis revealed that most
of the claims (approximately
84%) were paid for Pre-12/60
Injuries.

Our analysis also revealed that the Pre-12/60 Injury category yielded the
greatest savings. From 1993 to 1998, approximately 93 percent of the
savings were in the Pre-12/60 Injury category ($8,386,754 savings
compared to total savings of $9,009,614 in non-chargeable costs). In
comparison, savings in the Special Cases/Fringe Acts category were
small. See Appendix F for figures. We also noted that pre-12/60 injury
and total non-chargeable costs went down by approximately the same
percentages–25 percent and 29 percent respectively.


                              5
           In addition, we determined where the majority of costs existed–in medical
           expenses, compensation benefits and survivor benefits; therefore, we
           conducted a cost comparison of the three different categories. Our
           analysis focused solely on the total non-chargeable universe because the
           results of any other comparison would be inconsequential (for example,
           comparing these costs within the three (3) non-chargeable categories).


Figure 4
                                               Figure 4 provides an overview of our
                                               cost comparison of non-chargeable costs
                                               in 1993 and 1998. The chart shows
                                               that most of the costs were paid in
                                               compensation and survivor benefits,
                                               with minimal costs paid in medical
                                               expenses. The chart also reveals
                                               the greatest savings are in both
                                               compensation and survivor benefits
                                               (approximately 20% reduction for
                                               each) with minimal change in medical
                                               costs paid during this period.
                                               Appendices C, D, and E show the
                                               number of claims, costs, rate
                                               changes, and savings.




      2.   Life Span and Projected Costs of Non-chargeables

           a.    Life Span

           Using a method that yields the longest projected life span, based on a
           retirement age of 62, we predict that, 90 percent, at most, of the current
           non-chargeable claimants will no longer receive benefits by the year
           2022. This method was based on most of the claimants receiving benefits
           longer than one year and 79 percent being over the age of 62 years.




                                        6
                b.      Projected Costs

                        Figure 5
                           CB Year        Non-chargeable Costs           Rate of Change
                             1982               $65,677,421
                             1993               $50,929,943                  -22.45%
                             1994               $48,023,765                   -5.71%
                             1995               $44,921,993                   -6.46%
                             1996               $44,747,675                   -0.39%
                             1997               $41,920,358                   -6.32%
                             1998               $40,581,045                   -3.19%
                          Percent of Change                                  -38.21%
                          CBY 1982 - 1998

                As shown in Figure 5, between 1982 and 1998 the liability for non-
                chargeable claims has gone down by 38.21 percent. Additionally, we
                found that the pre-12/60 costs and many of the older1 special case/fringe
                act categories will likely be eliminated by the year 2023. We did not
                include the obsolete agencies in our analysis because they totaled only
                two cases. More recent2 special case/fringe act categories were also not
                included in the analysis because these costs will fluctuate unpredictably.


                OWCP officials informed us that the agency has arranged with an
                accounting firm to do a requirements analysis and provide some
                additional actuarial support for a revision to the current FECA liability
                model. They said that while the current model provides adequately for
                the FECA future liability, it can be enhanced to improve the allocation of
                liability among the Federal agencies, particularly in mature accident
                periods where relatively few claims remain open (as is the case with much
                of the non-chargeable liability). They added that agencies can be


        1
         Older special case categories–For purposes of this review these include: 1) Federal Emergency
Relief Administration, 2) Civilian Conservation Corps, 3) Civilian Works Administration, 4) National
Youth Administration, 5) Florida Hurricane, 6) Works Projects Administration, 7) War Hazards, 8) Enemy
Action, 9) War Relocation Authority, 10) Civilian War Benefits, and 11) World War II Maritime.
        2
       Recent special case categories–For purposes of this review these include: 1) Civil Air Patrol, 2)
Non-Federal Law Enforcement Officers, 3) Reserve Officers Training Corps, and 4) War Claims Act.

                                                     7
     grouped for analysis based on identifiable risk characteristics which can
     be expected to produce similar loss development patterns and similar loss
     cost per exposure unit. They expect that a revised model will yield a six-
     year budget projection which considers prospective claim activity.
     (OWCP now has a separate model for semi-annual budget projections.)
     OWCP expects to begin testing enhanced portions of the model late in
     the 1999 calendar year, and anticipate that they will be available for use
     in making FY 2000 estimates (performed in September 2000, based on
     payments for July 1, 1999 - June 30, 2000).

3.   Returning Claimants to Work

     Not all claimants are subject to return-to-work standards and
     requirements. For example, 1,592 (or 44%) of the claimants were
     receiving survivor benefits on June 30, 1998. This group of claimants is
     not subject to return-to-work standards or requirements. OWCP
     regulations describe the eligibility requirements for family members to
     receive survivor benefits of deceased claimants–family members include
     immediate, adopted, and step family members such as spouses, children,
     grandchildren, parents, and siblings.

     The remaining 2,068 (or 56%) claimants are covered under OWCP’s
     return-to-work policies. However, even knowing the characteristics of
     each group, it is difficult to anticipate to what extent claimants may, or
     may not, return to work. For example, approximately 796 (or 39%) of
     these claimants are ROTC and LEO. Based on the nature and cause of
     injuries to these claimants, predominately traumatic/violent, it is difficult to
     predict what percentage of them will return to work.

     Even so, we found evidence which verified OWCP’s efforts to return non-
     chargeable claimants back into the workforce, either in similar positions or
     through retraining programs, are comparable to efforts of employing
     agencies.

4.   Accuracy and Usefulness of Claimant Information

     We identified the following two problems with claimant information: (1)
     incorrect data and (2) omitted data.

     Incorrect Data:

     We removed less than one percent of the non-chargeable records from
     our analysis. These records were removed because we were unable to
     determine the accuracy of dates. In some instances, we found dates of


                                     8
injury and/or dates of death to be identical to dates of birth. We were
informed by OWCP officials that the current database was not designed,
nor was there a mandate to design it, to capture the social security
numbers or dates of birth for the spouse (or other family members) when
benefits were paid to them as beneficiaries of a deceased claimant. They
also told us that up until 1971, there was no place on the notice of injury
forms for claimants to provide their date of birth or their social security
number.

A specific problem we found was that the birth date listed may not be the
actual birth date of the claimant. For example, the numbers “111" and
“123" were used arbitrarily to code the birth date fields, particularly when
birth dates were not found in claimants’ records.

Omitted Data:

Some of the entries in the database were blank. For example:

"      The “Adjudication Status” field was blank in some records. This
       field explains the status of payment–for example, AF = death
       accepted as compensable; dependent on periodic roll, no medical
       benefits. According to OWCP program procedures, an error report
       is used to verify information and detect errors and omissions, such
       as those that appear in the adjudication status codes.

"      The “Forms Received” field was not included in some records.
       This field shows that appropriate forms have been received as part
       of the process. This information is pertinent particularly for
       claimants and survivor benefits because it verifies that the
       appropriate form was obtained and the person should continue to
       receive benefits.

"      The “Social Security Number” field was blank in some instances or
       was coded with a “99999" prefix–a non-existent social security
       number. This field is useful to identify overpayments in benefits.

       During the course of our review, we discovered that OWCP’s
       district offices attempted to backfill relevant data that were
       available on the notice of injury forms with the transition to the
       Federal Employees’ Compensation System database in 1977. The
       blanks or “9999" codes serve as various indicators–injured
       claimants who are eligible to receive benefits but do not have
       social security numbers was one example provided by OWCP.



                               9
              According to OWCP, there is a current effort to redesign the automated
              database system application for federal employees’ compensation. The
              redesign includes a requirement that social security numbers and dates of
              birth be made available for claimants as well as all beneficiaries. The
              number of problems we found within the non-chargeable claimant
              universe is small; therefore, OWCP should attempt to make any
              corrections noted in our report during the implementation phase of their
              redesigned database.

              Recommendation:

              We suggest that OWCP attempt, to the extent possible, to make any
              corrections of the omitted data during the implementation phase of their
              redesigned database.

              OWCP Response
              “We are substantially in agreement with the findings and conclusions of
              the report. With regard to the one recommendation, that OWCP attempt,
              to the extent possible, to correct the omitted data during the
              implementation phase of ADP redesign, we will comply to the extent we
              can. The redesign plan allows for entry of the Social Security Number
              (SSN) of the spouse, children, and any other dependents. ADP can
              provide the reports necessary to identify claims with missing information.
              The projected timeframes involved will depend on the actual redesign
              implementation period.”

              OIG Conclusion
              Based on OWCP’s response, we consider this recommendation resolved
              and closed.



Contributors to this report:

Lynne M. Johnson, Project Leader
Roger Britts
Nigel Gardner
Dennis J. Raymond

Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                           10
                                     Appendix A

                                     Bibliography

Executive Order No 9201, Dated March 18, 1942, 7 F.R. 2165 (visited 2/23/99)
<http://chem.nwc.whecn.edu/relocation/No9102.htm>

Federal Employees’ Compensation Act, Program Procedures, (visited 2/22/99)
<http://www.fiengroup.com/dol/index.html>

Life Expectancy (visited 6/4/99) <http://www.annuityshopper.com/content_pages/life-
expect.htm>

Museum of the City of San Francisco, First Japanese Ready to Leave Coast, The San
Francisco News, March 19, 1942 (visited 3/5/99) <http://www.sfmuseum.org/hist8/
intern2.html>

Social Security Bulletin, Civilian War Benefits, Volume 60, 1997, Number 2 (visited
2/8/99) <http://www.ssa.gov/history/civilwar.html>

U.S. Department of Labor, Code of Federal Regulations Entries, 20 CFR Part 1-199,
Part 61, Claims for Compensation Under the War Hazards Compensation Act, As
Amended (visited 2/22/99) <http://www.dol.gov.dol/esa/public/regs/cfr/20cfr/toc_
Part1-199/Part1-199_toc.htm>

U.S. Department of Labor, Employment Standards Administration, Office of Workers’
Compensation Programs, Federal Employees’ Compensation Act. Washington, DC:
GPO, 1960.

U.S. Department of Labor, Employment Standards Administration, Office of Workers’
Compensation Programs, Federal Employees’ Compensation Act . Washington, DC:
GPO, 1991.

U.S. Department of Labor, Code of Federal Regulations Entries, 20 CFR Part 1-199,
Part 71, General Provisions (visited 2/22/99) <http://www.dol.gov.dol/esa/public/regs/
cfr/20cfr/toc_Part1-199/Part1-199_toc.htm>

U.S. Department of Labor, Office of Inspector General, Office of Audit, Report Number
12-98-001-04-431, Special Reports Relating to the Federal Employees’ Compensation
Act, Special Benefit Fund, as of and for the year ended September 30, 1997, (issued
January 9, 1998) (visited 3/16/99) <http://www.oig.dol/public/reports/oa/1998/feca_
aup_rpt.htm>




                                           11
Bibliography (continued)

U.S. Government Accounting Office, Report GAO/GGD 96-138R, Briefing Report to
Congressional Requestors, Federal Employees’ Compensation Act - Issues Associated
with Changing Benefits for Older Beneficiaries, August 14, 1996 (visited 5/21/99)
<Westlaw@westgroup.com>

U.S. Government Accounting Office, Report T/GGD 97-187, Recent GAO Reports on
the Federal Employees’ Compensation Act, September 30, 1997 (visited 5/21/99)
<Westlaw@westgroup.com>

U.S. Government Accounting Office, Report GAO/GGD-96-76, Workers’ Compensation
- Selected Comparisons of Federal and State Laws. April 3, 1996 (visited 5/21/99)
<Westlaw@westgroup.com>

U.S. Office of Personnel Management, Operation Manual, Qualification Standards for
General Schedule Positions, General Policies and Instructions, TS-2, Washington, DC:
GPO, 1994.

Whitehead, Kenneth D. 1999 Federal Personnel Guide. Washington, DC: Key
Communications Group, Inc., 1999

Work, March 20, 1997 (visited 3/5/99) <http://www.lib.washington.edu/exhibits/
harmony/Exhibits/work.html>




                                          12
                                            Appendix B

                                  Non-chargeable and Total FECA
                                        Claims and Costs

             Claims
                CB      Non-chargeable     Rate of         Total FECA      Rate of     Percent
               Year        Claims          Change            Claims        Change       N/C to
                                                                                        Total

              1982           9,458                           251,835                    3.76%

              1993           4,811        -49.13%            272,771        8.31%       1.76%

              1994           4,552         -5.38%            277,034        1.56%       1.64%

              1995           4,238         -6.90%            277,651        0.22%       1.53%

              1996           3,934         -7.17%            273,603       -1.46%       1.44%

              1997           3,647         -7.30%            264,963       -3.16%       1.38%

              1998           3,343         -8.34%            261,456       -1.32%       1.28%

              Percent of Change           -64.65%                           3.82%
              CBY 1982 - 1998



             Costs
                CB      Non-chargeable     Rate of         Total FECA      Rate of     Percent
               Year         Costs          Change             Costs        Change       N/C to
                                                                                        Total

              1982        $65,677,421                     $820,025,148                  8.01%

              1993        $50,929,943     -22.45%         $1,807,766,748   120.45%      2.82%

              1994        $48,023,765      -5.71%         $1,861,954,284    3.00%       2.58%

              1995        $44,921,993      -6.46%         $1,880,050,953    0.97%       2.39%

              1996        $44,747,675      -0.39%         $1,885,558,498    0.29%       2.37%

              1997        $41,920,358      -6.32%         $1,875,845,921   -0.52%       2.23%

              1998        $40,581,045      -3.19%         $1,928,561,151    2.81%       2.10%

              Percent of Change           -38.21%                          135.18%
              CBY 1982 - 1998


Rate of change formula: Claims or costs of current year subtracted by claims or costs of
previous year. Difference divided by the previous year. For example, using 1982 and 1993 cost
figures: $65,677,421-$50,929,943 = $14,747,478 divided by $65,677,421 = $22.45%


Data obtained from OWCP: FECA Costs, All Federal Agencies, CB Years 1982-90, 1991-98, and Total
Cost of FECA Non-chargeable Cases for CB Years 1988 through 1997.

                                                     13
                                          Appendix C

                                       Medical Expenses:
                                 Non-chargeable and Total FECA
                                       Claims and Costs

            Claims
               CB      Non-chargeable    Rate of         Total FECA     Rate of   Percent
              Year        Medical        Change           Medical       Change     N/C to
                           Claims                          Claims                  Total

             1982         unknown                         223,253

             1993          1,587                          247,674       10.94%     0.64%

             1994          1,609         1.39%            252,370       1.90%      0.64%

             1995          1,447        -10.07%           251,138       -0.49%     0.58%

             1996          1,308         -9.61%           246,547       -1.83%     0.53%

             1997          1,200         -8.26%           238,448       -3.29%     0.50%

             1998          1,115         -7.08%           235,015       -1.44%     0.47%

             Percent of Change          -29.74%                         -5.11%
             CBY 1993 - 1998



            Costs
               CB      Non-chargeable    Rate of                        Rate of   Percent
              Year        Medical        Change          Total FECA     Change     N/C to
                           Costs                        Medical Costs              Total

             1982         unknown                       $125,344,832

             1993        $3,971,772                     $461,994,008    268.58%    0.86%

             1994        $3,527,111     -11.20%         $489,204,780    5.89%      0.72%

             1995        $2,627,209     -25.51%         $457,993,308    -6.38%     0.57%

             1996        $2,630,465      0.12%          $454,348,180    -0.80%     0.58%

             1997        $2,780,425      5.70%          $444,072,557    -2.26%     0.63%

             1998        $3,906,528      40.50%         $469,012,391    5.62%      0.83%

             Percent of Change           -1.64%                         1.52%
             CBY 1993 - 1998




Data obtained from OWCP: FECA Costs, All Federal Agencies, CB Years 1982-90, 1991-98, and Total
Cost of FECA Non-chargeable Cases for CB Years 1988 through 1997.

                                                   14
                                          Appendix D

                                    Compensation Benefits:
                                 Non-chargeable and Total FECA
                                       Claims and Costs

            Claims
               CB     Non-chargeable     Rate of         Total FECA      Rate of    Percent
              Year    Compensation       Change         Compensation     Change      N/C to
                          Claims                           Claims                    Total

             1982        unknown                           57,456

             1993          1,798                           80,512        40.13%      2.23%

             1994          1,656         -7.90%            80,511        0.00%       2.06%

             1995          1,513         -8.64%            81,820        1.63%       1.85%

             1996          1,376         -9.05%            80,249        -1.92%      1.71%

             1997          1,262         -8.28%            78,067        -2.72%      1.62%

             1998          1,129         -10.54%           76,944        -1.44%      1.47%

             Percent of Change           -37.21%                         -4.43%
             CBY 1993 - 1998



            Costs
               CB     Non-chargeable     Rate of         Total FECA      Rate of    Percent
              Year    Compensation       Change         Compensation     Change    N/C to Total
                          Costs                             Costs

             1982        unknown                          unknown

             1993       $22,901,157                     $1,229,123,104               1.86%

             1994       $21,226,758      -7.31%         $1,255,470,038   2.14%       1.69%

             1995       $20,074,631      -5.43%         $1,301,654,648   3.68%       1.54%

             1996       $19,520,967      -2.76%         $1,307,640,298   0.46%       1.49%

             1997       $18,056,961      -7.50%         $1,306,827,055   -0.06%      1.38%

             1998       $16,981,615      -5.96%         $1,333,626,791   2.05%       1.27%

             Percent of Change           -25.85%                         8.50%
             CBY 1993 - 1998




Data obtained from OWCP: FECA Costs, All Federal Agencies, CB Years 1982-90, 1991-98, and Total
Cost of FECA Non-chargeable Cases for CB Years 1988 through 1997.

                                                   15
                                           Appendix E

                                       Survivor Benefits:
                                 Non-chargeable and Total FECA
                                       Claims and Costs

            Claims
               CB      Non-chargeable     Rate of          Total FECA       Rate of   Percent
              Year     Survivor Benefit   Change         Survivor Benefit   Change     N/C to
                           Claims                            Claims                    Total

             1982         unknown                             5,443

             1993           2,154                             6,705         23.19%    32.13%

             1994           2,005         -6.92%              6,571         -2.00%    30.51%

             1995           1,869         -6.78%              6,471         -1.52%    28.88%

             1996           1,749         -6.42%              6,381         -1.39%    27.41%

             1997           1,656         -5.32%              6,264         -1.83%    26.44%

             1998           1,509         -8.88%              6,108         -2.49%    24.71%

             Percent of Change            -29.94%                           -8.90%
             CBY 1993 - 1998



            Costs
               CB     Non-Chargeable      Rate of             Total         Rate of   Percent
              Year    Survivor Benefit    Change         Survivor Benefit   Change     N/C to
                           Costs                              Costs                    Total

             1982         unknown                         $59,567,957

             1993       $24,057,015       0.00%           $116,649,637      95.83%    20.62%

             1994       $23,269,895       -3.27%          $117,279,465      0.54%     19.84%

             1995       $22,220,152       -4.51%          $120,412,996      2.67%     18.45%

             1996       $22,596,243       1.69%           $123,569,719      2.62%     18.29%

             1997       $21,082,973       -6.70%          $124,946,309      1.11%     16.87%

             1998       $19,692,901       -6.59%          $125,921,968      0.78%     15.64%

             Percent of Change            -18.14%                           7.95%
             CBY 1993 - 1998




Data obtained from OWCP: FECA Costs, All Federal Agencies, CB Years 1982-90, 1991-98, and Total
Cost of FECA Non-chargeable Cases for CB Years 1988 through 1997.

                                                    16
                                                Appendix F

                                         Non-chargeable Costs
                                             by Category

                Agency                Year         Costs        Rate of       Dollars       % Savings
                                                                change     Saved / Spent     of Total

     Obsolete Agencies               1988           $211,820

                                     1993            $11,782     94.44%          $17,018

                                     1997 *          $52,054    -341.81%        ($40,272)

     Special Cases/Fringe Acts       1988         $7,578,286

                                     1993         $8,358,388     -10.29%       ($780,102)

                                     1997         $7,695,256      7.93%         $663,132         7.0%

     Pre 12/1/60 Injuries            1988        $47,913,417

                                     1993        $42,559,802     11.17%        $5,353,615

                                     1997        $34,173,048     19.71%        $8,386,754      93.0%

     Total Non-chargeable            1988        $55,703,523

                                     1993        $50,929,972      8.57%        $4,773,551

                                     1997        $41,920,358     17.69%        $9,009,614




Data obtained from OWCP: FECA Costs, All Federal Agencies, CB Years 1982-90, 1991-98, and Total
Cost of FECA Non-chargeable Cases for CB Years 1988 through 1997.

* 1998 figures were not available at the time of this review.


                                                       17
                                    Appendix G

                            Life Expectancy Calculation


                                                  Living Claimants’ Ages
     Category
                                                  Mean           Median

     Pre-12/60 claimants                           79                78
     Special Cases                                 66                68
     (excluding LEO, ROTC, and CAP)
     Mean Age                                      73                73
     Retirement Age                                62                62


Method 1:

Projected Life Expectancy

      Mean/Median Age                                                     73 years
      Unisex Life Expectancy in Years
      (Ordinary Life Annuities -- based on median/average age)            13.9 years
      Current Year: 1999                                         +        1999

      Projected Year                                                      2012
                                                                          (rounded)


Method 2:

Projected Life Expectancy

      Retirement Age                                                      62 years
      Unisex Life Expectancy in Years
      (Ordinary Life Annuities -- based on retirement age)                22.5 years
      Current Year: 1999                                         +        1999

      Projected Year                                                      2022
                                                                          (rounded)



                                          18
                                                  Appendix H

                                              1998
                                   Special Cases / Fringe Acts
                                             Claims

                                        Total        # Living    % of          #        % of          #
             Category                 Claimants     Claimants    Total     Survivors    Total      blanks3


Civil Air Patrol                         57            8        14.04%        49       85.96%

Civilian Conservation Corps              26            23       88.46%         3       11.54%

Civilian War Benefits                    4             1        25.00%         3       75.00%

Civilian Works Administration            2             1        50.00%         1       50.00%

Enemy Action                             26            10       38.46%        16       61.54%

Federal Emergency Relief Act             1             0                       1       100.00%

Florida Hurricane                        1             0                       1       100.00%

Non-Federal Law                         243           104       42.80%       132       54.32%          7
Enforcement Officers

National Youth Administration            0

Reserve Officers Training               703           692       98.44%         1       0.14%           10
Corps

War Claims Act                           47            45       95.74%         0                       2

War Hazards                             107            15       14.02%        90       84.11%          2

War Relocation Authority                 3             2        66.67%         1       33.33%

Work Projects Admin                      55            2        3.64%         53       96.36%

World War II Maritime                    0

Totals                                 1275           903       70.82%       351       27.53%          21




         3
          Numbers in columns reflects we were unable to determine if claimant is living or deceased.
                                                      19
                                           Appendix I

                                   Claimant Records Summary
                                  June 30, 1993, 1997, and 1998

Special Case/Fringe Act Categories
                                                  Total             Total             Total
                     Category                Claimants as of   Claimants as of   Claimants as of
                                             June 30, 1993     June 30, 1997     June 30, 1998

Civil Air Patrol                                    58               57                57

Civilian Conservation Corps                         38               24                26

Civilian War Benefits                               6                 4                4

Civilian Works Administration                       6                 2                2

Enemy Action                                        42               30                26

Federal Emergency Relief Act                        2                 2                1

Florida Hurricane                                   4                 2                1

Non-Federal Law Enforcement Officers                312             269               243

National Youth Administration                       0                 0                0

Reserve Officers Training Corps                     771             753               703

War Claims Act                                      64               52                47

War Hazards                                         113             105               107

War Relocation Authority                            7                 4                3

Work Projects Admin                                 104              63                55

World War II Maritime                               2                 1                0

Totals                                           1529               1368             1275


All Categories
                                                  Total             Total             Total
                     Category                Claimants as of   Claimants as of   Claimants as of
                                             June 30, 1993      June 30, 1997    June 30, 1998

Special Claims                                   1529               1368             1275

Pre 12/60 Injuries                               3589               2589             2383

Obsolete Agencies                                   3                 2                2

Totals                                           5121               3959             3660

Total # of Records                              12740

                                               20
                                         Appendix J

                               Special Cases / Fringe Acts
                                        Summary

                              Database
          Agency               Prefix               Summary                     Statutory Authority

Federal Emergency Relief      FE         Under President F.D.                U.S. Employees’
Administration                           Roosevelt’s first New Deal,         Compensation Act of
                                         established by the Federal          1916, as amended, by
                                         Emergency Relief Act in 1933,       Acts of Congress dated
                                         assisted states and cities in       February 15, 1934,
                                         caring for the unemployed.          June 19, 1934, April 8,
                                                                             1935, June 22, 1936,
Civilian Conservation Corps   CC         Under Roosevelt’s first New         June 29, 1936, June
                                         Deal, established by the            29, 1937 and June 21,
                                         Unemployment Relief Act in          1938
                                         1933, provided work for men
                                         ages 18 and 25 to be employed       Provide payment of
                                         in projects such as                 limited compensation
                                         reforestation, soil conservation,   benefits under
                                         flood control, and road             prescribed
                                         construction.                       circumstances to
                                                                             employees in which
Civilian Works                CW         Under Roosevelt’s first New
                                                                             injuries took place prior
Administration                           Deal, established in 1933,
                                                                             to WWII.
                                         provided jobs for men in road
                                         repair and park improvement
                                         work. Disband in 1934 and
                                         functions assumed by the
                                         Federal Emergency Relief
                                         Administration.

National Youth                NY         Under Roosevelt’s second New
Administration                           Deal, established through the
                                         Emergency Appropriation Act
                                         of 1935, gave part time
                                         employment to needy persons
                                         between age 16-25 in high
                                         school/college/university to
                                         continue their education.
                                         Disbanded in 1943.

Florida Hurricane             FH         Veterans of WWI and others
                                         attached to Veterans’ Camps #
                                         1, 3, and 5 who were injured or
                                         killed as the result of the
                                         hurricane of 9/2/35 at the
                                         Florida Keys.




                                              21
Appendix J - Special Cases / Fringe Acts Summary (continued)
                              Database
             Agency            Prefix               Summary                  Statutory Authority

 Works Projects               WP         Under Roosevelt’s second New      E.O. 7034 (May
 Administration                          Deal, established through the     6,1935) continued
                                         Emergency Relief                  yearly based on
                                         Appropriation Act of 1935.        emergency relief
                                         Employed manual laborers in       appropriations act.
                                         construction type jobs as well    Name changed from
                                         as work for the skilled and       Work Progress
                                         educated through the Federal      Administration by
                                         Art Project, Federal Writers’     Reorg Plan #1 (July 1,
                                         Project and Federal Theater       1939) to Federal Works
                                         Project. Terminated in 1943.      Agency and transferred
                                                                           to Federal Work
                                                                           Administrator (12/4/42)

                              WH         Employees of contractors with     War Hazards
 War Hazards                             the United States who sustain     Compensation Act
                                         injury due to a war-risk hazard   (WHCA), 42 U.S.C.
                                         or who are detained by a          1701 et seq., enacted
                                         hostile force or person.          December 2, 1942, and
                                                                           amended in 1943,
 Enemy Action                 EA         Cases dating from WWII            1946, 1953, 1958, 1959
                                         which involved contractors to     and 1961.
                                         Pacific Naval Air Bases
                                         captured by the Japanese.


 Reserve Officers’ Training   TC         Cadets or applicants in the       Public Law 84-879
 Corps (ROTC)                            ROTC of the Army, Navy or Air     enacted August 1,
                                         Force, under certain              1956;5 U.S.C. 8140
                                         conditions.                       (P.L. 89-554, 9/6/66
                                                                           and 100-456, 9/29/88)

 Civil Air Patrol             CP         Volunteers over 18 years of       Public Law 84-955
                                         age while in performance or       enacted August 3, 1956
                                         support of operational missions   and Section 8141 of
                                         of the CAP under the direction    the FECA .
                                         of the Department of the Air
                                         Force.

 Non-Federal Law              LE         Non-Federal law enforcement       Public Law 90-291 April
 Enforcement Officers                    officers who sustain an injury    14, 1968; 5 U.S.C.
                                         or disease under                  8191
                                         circumstances involving a
                                         crime against the United
                                         States. Extended to eligible
                                         survivors of officers whose
                                         death occur under such
                                         circumstances




                                              22
Appendix J - Special Cases / Fringe Acts Summary (continued)
                            Database
            Agency           Prefix               Summary                    Statutory Authority

 War Claims                 WC         1) U.S. citizens captured by or     Section 5, War Claims
                                       in hiding from the Imperial         Act of July 3, 1948,
                                       Japanese Government on or           amendments of August
                                       after December 7, 1941, at          21, 1954, and
                                       Midway, Guam, Wake Island,          amendments of June
                                       the Philippine Islands or any       24, 1970, respectively.
                                       territory or possession of the
                                       U.S attacked or invaded by
                                       such government. Benefits
                                       provided for detention, injury
                                       and death, 2) Civilian
                                       Americans captured in Korea
                                       during hostilities here on or
                                       after June 25, 1950 and 3)
                                       civilian American citizens
                                       subsequent to February 27,
                                       1961 for capture during the
                                       Vietnam conflict.

 War Relocation Authority   RA         Authorized the War Relocation       Limited benefit
                                       Work Corp, a Federal                provisions.
                                       sponsorship for employment of       Established by E.O.
                                       Japanese American evacuees.         9102, March 18, 1942.
                                       Able-bodied men and women           Included in U.S.
                                       over 16 years of age could          Department of Labor,
                                       voluntarily enlist in the Work      Compensation Act of
                                       Corps. Program terminated           1934 as amended.
                                       June 30, 1946                       (46 Stat. 351)

 Civilian War Benefits      CB         WWII program to provide             Non-statutory program
                                       benefits for disability and death   administered by the
                                       of certain specified civil          Federal Security
                                       defense workers.                    Agency. Program
                                                                           subsequently
                                                                           transferred to the Labor
                                                                           Department pursuant to
                                                                           Reorganization Plan
                                                                           #19 of 1950.

 World War II Maritime      R          Disability benefits under           Program Memorandum
                                       prescribed conditions to            No 19 (Section 104,
                                       seamen employed on vessels          P.L. 86-767), P.L. 86-
                                       owned, operated by or               233, (1960) transferred
                                       chartered to the Maritime           responsibilities to the
                                       Commission or the War               Labor Secretary. P.L.
                                       Shipping Administration.            449, 78th Congress
                                                                           (9/30/44)




                                            23
                                      Appendix K

                              Special Cases / Fringe Acts
                                        Costs

                   Category              Year       Costs      Rate of    Dollars
                                                               change     Savings

Civil Air Patrol                        1988     $673,582

                                        1993     $709,774     -5.37%     ($36,192)
Chargeback Prefix: CP
                                        1997 *   $687,582     3.13%      $22,192

Civilian Conservation Corps             1988     $384,310

                                        1993     $300,197     21.89%     $84,113
Chargeback Prefix: CC
                                        1997     $215,517     28.21%     $84,680

Civilian War Benefits                   1988     $43,318

                                        1993     $17,779      58.96%     $25,539
Chargeback Prefix: CB
                                        1997     $26,806      -50.77%    ($9,027)

Civilian Works Administration           1988     $62,592

                                        1993     $64,704      -3.37%     ($2,112)
Chargeback Prefix: CW
                                        1997     $30,944      52.18%     $33,760

Enemy Action                            1988     $438,702

                                        1993     $333,908     23.89%     $104,794
Chargeback Prefix: EA
                                        1997     $303,644     9.06%      $30,264

Federal Emergency Relief Act            1988     $11,492

                                        1993     $11,492      0.00%      $0
Chargeback Prefix: FE
                                        1997     $5,651       50.83%     $5,841

Florida Hurricane                       1988     $31,059

                                        1993     $22,776      26.67%     $8,283
Chargeback Prefix: FH
                                        1997     $11,492      49.54%     $11,284

Non-Federal Law Enforcement             1988     $3,045,675
Officers
                                        1993     $3,283,882   -7.82%     ($238,207)

Chargeback Prefix: LE                   1997     $3,466,160   -5.55%     ($182,278)




                                           24
Appendix K - Special Cases / Fringe Act Costs
                   Category             Year         Costs    Rate of    Dollars
                                                              change     Savings

     National Youth Administration     1988     $388

                                       1993     $0           100.00%    $388
     Chargeback Prefix: NY
                                       1997     $0

     Reserve Officers Training Corps   1988     $192,763

                                       1993     $517,630     -168.53%   ($324,867)
     Chargeback Prefix: TC
                                       1997     $548,994     -6.06%     ($31,364)

     War Claims Act                    1988     $55,235

                                       1993     $204,342     -269.95%   ($149,107)
     Chargeback Prefix: WC
                                       1997     $161,084     21.17%     $43,258

     War Hazards                       1988     $1,507,182

                                       1993     $2,145,903   -42.38%    ($638,721)
     Chargeback Prefix: WH
                                       1997     $1,760,379   17.97%     $385,524

     War Relocation Authority          1988     $116,467

                                       1993     $91,831      21.15%     $24,636
     Chargeback Prefix: RA
                                       1997     $55,323      39.76%     $36,508

     Work Projects Admin               1988     $991,488

                                       1993     $640,866     35.36%     $350,622
     Chargeback Prefix: WP
                                       1997     $413,805     35.43%     $227,061

     World War II Maritime             1988     $24,033

                                       1993     $13,304      44.64%     $10,729
     Chargeback Prefix: R
                                       1997     $7,875       40.81%     $5,429




                                         25
  Appendix L

Agency Response




      26
